No. 19-123

IN THE

Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit
CERTIFICATE OF SERVICE

I hereby certify that I am a member of the bar of this Court and that on this
20th day of August, 2020, pursuant to Rule 29.3 of the Supreme Court Rules, I have
caused copies of the foregoing Brief of Amici Curiae Lee C. Bollinger, Erwin
Chemerinsky, Burt Neuborne, Robert C. Post and Geoffrey Stone in Support of
Respondents to be served by Federal Express Overnight Delivery and electronic
transmission upon counsel listed below:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
mrienzi@becketlaw.org
COUNSEL OF RECORD FOR PETITIONERS

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
neal.katyal@hoganlovells.com
COUNSEL OF RECORD FOR RESPONDENT
Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW

Suite 312
Washington, DC 20036
deepak@guptawessler.com
COUNSEL OF RECORD FOR RESPONDENT
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
lcooper@aclu.org
COUNSEL OF RECORD FOR INTERVENOR

Dated at Washington, DC, this 20th day of August, 2020.
/S /
JONATHAN L. MARCUS
JONATHAN L. MARCUS
COUNSEL OF RECORD
1440 New York Avenue, N.W.
Washington, DC 20005
(202) 371-7000
Jonathan.marcus@probonolaw.com
ATTORNEY FOR Amici Curiae

